IN THE SUPREME COURT OF THE UNITED STATES
___________
No. 19A622
___________
ANDRE G. DEWBERRY, APPLICANT
v.
UNITED STATES OF AMERICA
___________
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT
___________
Pursuant to Rules 13.5 and 30.2 of this Court, counsel for
Andre G. Dewberry respectfully requests a 21-day extension of time,
to and including February 20, 2020, within which to file a petition
for a writ of certiorari to review the judgment of the United
States Court of Appeals for the Eighth Circuit in this case.

The

United States Court of Appeals for the Eighth Circuit entered its
judgment on August 27, 2019.

App., infra, at 1a.

That court

denied a timely petition for rehearing on October 2, 2019.
infra, at 10a.

App.,

On motion from prior counsel of record, this Court

previously extended the time within which to file the petition by
30 days.

Unless extended, the time for filing a petition for a

writ of certiorari will expire on January 30, 2020.

The juris-

diction of this Court would be invoked under 28 U.S.C. § 1254(1).
1.

Andre G. Dewberry was denied his Sixth Amendment right

to represent himself in court.

In February 2015, Mr. Dewberry was

indicted on one charge of being a felon in possession of a firearm

2

in violation of 18 U.S.C. §§ 922(g)(1) and 924(a)(2).

Initially,

the federal magistrate judge allowed him to proceed pro se and
also appointed a public defender as standby counsel.

But during

a pretrial conference, after a tense back-and-forth, the district
court terminated Mr. Dewberry’s pro se representation and reappointed the public defender as counsel.

Mr. Dewberry subsequently

pleaded guilty pursuant to a plea agreement that included 60
months’ imprisonment.
2.
3a.

App., infra, at 2a.

In March 2017, Mr. Dewberry appealed.

App., infra, at

The Eighth Circuit appointed him new counsel under the Crim-

inal Justice Act and ordered the parties to brief (1) whether Mr.
Dewberry’s guilty plea waived his right to challenge the denial of
his Sixth Amendment right to self-representation and (2) whether
the district court’s denial of Mr. Dewberry’s self-representation
was justified by his conduct.

App., infra, at 4a.

On the second

question, the parties agreed the denial was not justified by conduct.

The government conceded the point in its briefing, arguing

instead that Mr. Dewberry’s request for self-representation was
not sufficiently “unequivocal.”
3.

App., infra, at 4a.

The Eighth Circuit denied Mr. Dewberry’s appeal and af-

firmed his conviction.

App., infra, at 7a-8a.

The question of

whether Mr. Dewberry waived his challenge by pleading guilty was
a matter of first impression in the Eighth Circuit.

The majority

opinion noted the existence of a split among the courts of appeals
on this issue:

the Fourth, Sixth, Seventh, and Tenth Circuits all

3

hold that defendants in Mr. Dewberry’s position waive their challenge; the Ninth Circuit holds that they do not.

App., infra, at

5a.
The court of appeals’ opinion sided with the majority approach, holding that “[a]lthough the district court may have violated Dewberry’s right to self-representation, Dewberry is barred
from bringing his appeal on this record.”
4.

App., infra, at 7a-8a.

Judge Kelly, concurring in the judgment, wrote that “the

record makes clear that the district court violated Dewberry’s
right to self-representation when it reappointed counsel to represent him.”

App., infra, at 8a.

She deemed that error “struc-

tural,” but concluded that “structural errors can still be waived.”
App., infra, at 9a.
5.

On October 2, 2019, the court of appeals denied a timely

petition for rehearing en banc.
6.

App., infra, at 10a.

On December 4, 2019, this Court granted prior counsel of

record’s motion for an extension of time within which to file a
petition for certiorari, granting a 30-day extension to and including January 30, 2020.

In his motion, prior counsel of record

represented that he was in the process of retaining new counsel
for Dewberry.
7.

On January 6, 2020, applicant retained undersigned coun-

sel to prepare the petition for a writ of certiorari in this Court.
8.

Counsel for applicant respectfully requests a 21-day ex-

tension of time, to and including February 20, 2020, within which
to file a petition for a writ of certiorari.

The court of appeals’

decision in this case presents complex issues concerning the proper

4

interpretation of the Sixth Amendment.

Undersigned counsel did

not represent applicant below and was retained by applicant on
January 6, 2020, only 24 days before the petition for certiorari
in this case is due to be filed.

Undersigned counsel is also in

the process of preparing for argument and to file briefs in this
Court and other courts, which will occupy virtually all of undersigned counsel’s time between now and the current deadline.

In

particular, counsel is preparing to present argument in this Court
in Romag Fasteners Inc. v. Fossil, Inc., No. 18-1233, on January
14, 2020, and preparing to submit respondent’s brief in this Court
in U.S. Patent & Trademark Office v. Booking.com B.V., No. 19-46,
on February 12, 2020, necessitating this request.
Respectfully submitted.

_/s/ Lisa S. Blatt___________
LISA S. BLATT
Counsel of Record
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000

January 10, 2020

